TITLE XI LOAN GUARANTEE PROGRAM:
   ACTIONS ARE NEEDED TO FULLY
  ADDRESS OIG RECOMMENDATIONS
          Maritime Administration

        Report Number: CR-2011-024
       Date Issued: December 7, 2010
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Title XI Loan Guarantee Program:                                       Date:    December 7, 2010
           Actions Are Needed To Fully Address OIG's
           Recommendations
           Report Number: CR-2011-024

  From:    Mitchell Behm                                                               Reply to
                                                                                       Attn. of:   JA-50
           Assistant Inspector General for Rail, Maritime and
           Economic Analysis

    To:    Maritime Administrator

           The Maritime Administration's (MARAD) Title XI loan guarantee program (Title
           XI) guarantees private loans to commercial ship owners and shipyards for ship and
           shipyard building and modernization. The program currently has a portfolio of
           guarantees that covers over $2 billion in loans, and has the funding to expand it to
           almost $4 billion. Since 2004, however, Title XI has approved only five
           applications, with commitments totaling approximately $482 million, compared to
           an average of 11 approvals per year from fiscal year 1998 through fiscal year
           2002. Furthermore, over the past 12 years, the program has suffered through
           periods of significant defaults.      From February 1998 through April 2002,
           9 borrowers defaulted on approximately $490 million.               Then, between
           August 2008 and January 2010, 6 more borrowers defaulted on approximately
           $305 million.

           We conducted two prior audits of MARAD's oversight of the Title XI program in
           2003 1 and 2004 2 and made several recommendations to reduce the risks associated
           with the application process and improve portfolio monitoring. We followed up
           on this work with an October 2004 letter to the Secretary of Transportation stating
           that MARAD had developed procedures to address the 2003 recommendations, but
           had not completed effective implementation of these procedures.




           1
               OIG report entitled Title XI Loan Guarantee Program (Report No. CR-2003-031). OIG reports can be found on our
               website: www.oig.dot.gov.
           2
               OIG report entitled Title XI Loan Guarantee Program (Report No. CR-2004-095).
                                                                                                               2


We conducted this follow up audit in response to a directive in Senate Report 110-
131 3 requesting that we certify to the House and Senate Committees on
Appropriations whether MARAD is in compliance with the recommendations of
our 2003 and 2004 reports. 4 To accomplish this, our objectives were to determine:
(1) the extent to which MARAD has implemented procedures to improve its
oversight of borrowers in the Title XI portfolio; and, (2) whether the information
necessary for conducting this oversight is readily accessible.

We conducted this performance audit from November 2009 to May 2010 in
accordance with generally accepted government auditing standards. We selected a
statistical sample of 60 Title XI loan guarantees out of 114 total loan guarantees
approved by MARAD. We then conducted in-depth reviews of MARAD Office
of Marine Financing's files for 20 of the 60 sample guarantees. These
20 guarantees were active during the scope of our audit and were held by
14 companies. Exhibit A details our scope and methodology.

RESULTS IN BRIEF
MARAD has not fully implemented new procedures for improving oversight of
borrowers in its Title XI portfolio. The agency has not incorporated the guidance
it developed to address our 2003 recommendations into the program policy it
revised in 2007, resulting in inconsistent program policies. For example, the
guidance calls for maintaining documents on the condition of assets in each
guarantee's administrative file. However, the 2007 program policy was not
updated using this guidance and, as a result, the files we reviewed did not contain
documents on the condition of assets. MARAD also developed a computer-based
financial monitoring system, but the system was not tailored during development
to meet portfolio monitoring needs. Consequently, Title XI analysts do not use it.

The information needed to manage Title XI effectively is not readily accessible
because of incomplete administrative files on program guarantees and borrowers,
as well as limitations in its computer-based monitoring system. Neither Title XI
program policy nor MARAD's 2004 guidance identifies what information is
required for effective program monitoring, where the information should be
stored, or how it should be shared. MARAD does not maintain a single, central
file on each borrower. Instead, each of the three MARAD offices that monitor
borrowers maintains its own files. Our review of files maintained by the Office of
Marine Financing found that content varied from file to file and the files did not
indicate where important documents, such as reserve fund and financial

3
    Senate Report 110-131 accompanied the fiscal year 2008 Senate Transportation Appropriations Subcommittee bill
    and was printed on July 16, 2007.
4
    The full text of these eight recommendations is in Exhibit B.
                                                                                  3


agreements, were maintained. As a result, there is no assurance that information
MARAD needs to effectively oversee the $2.3 billion Title XI program is readily
accessible.

We are making recommendations to MARAD to reconcile its Title XI policy with
the 2004 guidance, and ensure that the information needed for effective program
oversight is readily accessible.

BACKGROUND
Title XI of the Merchant Marine Act of 1936, as amended, is intended to promote
the growth and modernization of the U.S. merchant marine and the Nation’s
shipyards by helping owners of eligible vessels and shipyards obtain long-term
financing under terms and conditions that might not otherwise be available. Upon
approval of a Title XI application, MARAD agrees to guarantee a privately-issued
loan through a commitment letter to the applicant.

MARAD's Office of Marine Financing has primary responsibility for
administering the Title XI program. The Department of Transportation's (DOT)
financial oversight entity, the Credit Council, provides additional supervision.
The Office of Marine Financing administers the program's application process and
monitors borrowers’ financial conditions throughout the terms of their guarantees.
It also keeps DOT's Credit Council apprised of the status of the Title XI portfolio,
including quarterly Credit Watch Reports on borrowers experiencing financial
difficulty. Two additional MARAD offices—the Office of Shipyards and Marine
Engineering and the Division of Marine Insurance—monitor certain aspects of the
guarantees in the portfolio for compliance with program requirements.

MARAD receives appropriations from both DOT and the Department of Defense
to subsidize Title XI loan guarantees. According to MARAD officials, as of
February 2010, MARAD had approximately $196 million to cover defaults and
delinquencies on the loan guarantees in its $2.3 billion Title XI portfolio. It also
had $78 million to use for new loan guarantees and to potentially expand the
portfolio by almost $1.5 billion.

INCONSISTENT PROGRAM POLICY AND A FINANCIAL
MONITORING SYSTEM THAT DOES NOT MEET PROGRAM
NEEDS COMPROMISES MARAD'S ABILITY TO EFFECTIVELY
OVERSEE BORROWERS
MARAD has developed guidance for addressing the recommendations in our 2003
report, but the agency has not updated Title XI's policy based on this guidance.
                                                                                                                   4


Consequently, the guidance does not match Title XI's policy. MARAD has also
developed a computer-based financial monitoring system, but since the system
does not address portfolio monitoring needs, such as facilitating financial analysis
of borrowers, Title XI analysts do not use it. Because MARAD has not fully
implemented the procedures and developed a financial system that meets its need
for computer-based portfolio monitoring, we cannot certify that MARAD is in
compliance with our recommendations or has adequate oversight of the Title XI
portfolio.

The Title XI Program's Policies and Guidance Are Inconsistent

In 2004, MARAD developed guidance 5 to address our recommendations on
improving policies and procedures for monitoring loan guarantees. However, the
agency did not incorporate this guidance into the 2007 revision of Title XI's
formal policy. 6 Consequently, the guidance does not match the policy. For
example, two of the guidance memoranda from 2004 address our
recommendations on asset monitoring. Specifically, the guidance calls for
maintaining documents on the condition of assets in the administrative file of each
guarantee. However, the 2007 program policy does not include a requirement to
maintain these documents and the files we reviewed did not include them.
Furthermore, officials from the Office of Shipyards and Marine Engineering,
which monitors asset condition, indicated that the office does not use the 2004
memoranda or the 2007 policy as criteria for overseeing asset condition.

In another example, the guidance's requirements for financial reporting do not
match the requirements in the program’s policy. The guidance calls for obtaining
quarterly financial statements for all borrowers and, for borrowers in the high risk
credit-watch category, obtaining monthly financial statements. However, both
Title XI’s policy and regulations require only semi-annual financial statements in
addition to audited annual financial statements. 7 Consequently, Title XI
borrowers are held to a variety of standards for financial reporting.

Because MARAD has not reconciled Title XI’s policy with its 2004 guidance, we
cannot be certain that it has the necessary internal controls in place to continuously
monitor the financial condition of borrowers.



5
    In 2004, the Office of Ship Financing produced five memoranda addressing the five recommendations in our 2003
    report. See Exhibit B for a list and explanation of the recommendations.
6
    OMB A-123, Title XI Process Description (2007)
7
    Loan guarantee agreements complicate the issue. Each agreement includes specific financial reporting requirements
    for the borrower, but these vary depending on which criteria (i.e., regulations, 2007 program policy, or 2004
    memorandum) were followed when the RFFA was put in place. According to MARAD officials, these agreements
    are contracts between MARAD and borrowers that cannot be changed without mutual consent.
                                                                                                           5


Title XI Analysts Do Not Use MARAD's Computer-Based Financial
Monitoring System

Title XI analysts do not use its computer-based financial monitoring system, the
Credit Programs Portfolio Management System (CPPMS). According to Title XI
analysts, the system does not provide a more efficient means of evaluating and
sharing borrowers' financial performance information than existing processes.

In fiscal year 2005, MARAD provided $2 million to a project with the Office of
the Secretary to develop and implement a financial monitoring system for use by
DOT credit programs, 8 including Title XI. This joint project developed CPPMS,
and Title XI's CPPMS module became operational in December 2007. However,
according to MARAD officials who monitor the Title XI portfolio, CPPMS does
not meet management needs because it is not capable of assessing borrowers’
finances and operations, or of sharing financial performance information with the
program's DOT stakeholders.

According to the MARAD Chief Information Officer and system developers,
CPPMS has the capacity to track and manage loans, create reports for data
analysis, and store documents related to processes and tasks. However, MARAD
uses Microsoft Excel spreadsheets and a separate system, Moody's KMV
RiskAnalyst, for collecting and analyzing financial information on the companies
in Title XI's portfolio. RiskAnalyst, however, is not linked to CPPMS, and
consequently, MARAD analysts have no means of automatically transferring the
Title XI financial information in it to CPPMS. MARAD's Chief Information
Officer stated that an interface between the two systems was never part of the
agency's development plan for a financial monitoring system, and would require
an upgrade of CPPMS. As a result, the $2 million investment that MARAD made
in CPPMS has not yet delivered a comprehensive computer-based financial
monitoring system that the agency can use to enhance management of its
$2.3 billion portfolio.

TITLE XI POLICY DOES NOT IDENTIFY WHAT INFORMATION IS
NEEDED TO MONITOR THE PORTFOLIO AND BORROWERS
Neither MARAD's Title XI program policy nor its 2004 guidance identifies what
information is required for effectively monitoring the Title XI portfolio and
borrowers, where the information should be stored, or how it should be shared.
Currently, only the two Office of Marine Financing analysts responsible for
managing the portfolio know what information they use to monitor the guarantees
and how it is stored. Furthermore, comprehensive information on guarantees,
8
    DOT credit programs with CPPMS currently include Transportation Infrastructure Finance and Innovation Act
    program (TIFIA), Railroad Rehabilitation and Improvement Financing program (RRIF), and Title XI.
                                                                                                                       6


borrowers, and assets is not maintained in one location. If the Office of Marine
Financing analysts are not available, this information is inaccessible.

MARAD does not maintain a single, central file on each loan guarantee and
borrower. Instead, each of the three offices that monitor the different aspects of
compliance maintains its own files. In our review of files 9 from the Office of
Marine Financing, which are the files used by the two analysts to monitor
guarantees, we found that content varied from file to file. Some files included
information related to the application process, some financial statements and
associated reviews, and memoranda between borrowers and MARAD. The files
did not indicate where important documents, such as reserve fund and financial
agreements, asset monitoring reports, external reviews of distressed loans, and
documentation on borrowers' deposits to their reserve funds were maintained.
Furthermore, while the Office of Shipyards and Marine Engineering and the
Division of Marine Insurance is required to file quarterly reports on their activities
with the Office of Marine Financing, MARAD officials informed us that the
Office of Marine Financing does not maintain these quarterly reports or related
information in its files on each guarantee.

Maintenance of separate files prevents easy access to complete information on
each guarantee. Without maintaining readily-accessible files on each loan
guarantee and borrower that include or reference important documents, MARAD
cannot respond to requests for information in a timely manner. Moreover, if the
institutional knowledge of current Office of Marine Financing staff is lost, the
Agency cannot effectively monitor borrowers' compliance with Title XI's
requirements.

CONCLUSION
MARAD developed new Title XI guidance and information systems to address the
recommendations in our 2003 and 2004 reports, but did not effectively implement
them. As a result, administration and oversight of the $2.3 billion program still
needs improvement. Given the potential for expansion of Title XI’s portfolio to
almost $4 billion with existing funding, MARAD must ensure that it implements
consistent policies and processes, and maintains ready access to important
financial information on Title XI borrowers and their loan guarantees.




9
    We requested the administrative files on 14 borrowers holding the 20 guarantees in our statistical sample. It took the
    agency 7 weeks, from November 2009 through January 2010, to provide the files.
                                                                                     7


RECOMMENDATIONS
To strengthen MARAD's oversight of the Title XI program, we recommend that
the Maritime Administrator take action to:

1. Reconcile formal Title XI policy with the February 2004 guidance memoranda
   and practices used to manage the program.

2. Require the Office of Marine Financing and MARAD's CIO to work together
   to identify capabilities needed to complete the development of the
   comprehensive computer-based financial monitoring system. At a minimum,
   they should ensure that the system allows for efficient monitoring of portfolio
   performance and information sharing with DOT stakeholders.

3. Ensure that the information needed to oversee borrower compliance with
   program requirements is readily accessible, that the location and components
   of each administrative file are easily identifiable, and that each file contains all
   documentation needed for evaluating borrower compliance with Title XI
   requirements by inclusion or reference.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided MARAD a draft of our report on October 19, 2010. We received
MARAD's response on November 15, 2010, which is included in its entirety in the
appendix of this report. In its response, MARAD detailed recent actions it has
taken to improve its business practices, but noted that the largest opportunity to
mitigate default risk occurs during the period prior to loan guarantee approval.
While we appreciate MARAD's commitment to improving the implementation of
procedures for the administration and oversight of Title XI borrowers, we maintain
that by taking action to respond to our recommendations, including during the loan
repayment period, MARAD can further limit the potential loss to the government
when a default occurs. Nevertheless, MARAD fully concurred with all of our
recommendations. However, MARAD did not provide a target completion date
for actions to address our second recommendation. Since its response indicates
that it has obligated the resources needed to implement changes to CPPMS, and
that it is pursuing the additional resources to train its staff on the use of CPPMS,
MARAD should be able to provide a target completion date for this
recommendation. Accordingly, we are requesting that MARAD provide us with a
planned completion date for those actions.
                                                                             8


ACTIONS REQUIRED
MARAD provided acceptable actions and timeframes for recommendations 1 and
3, and we consider them resolved, subject to follow-up provisions in accordance
with DOT Order 8000.1C. We request that within 30 days of this report, MARAD
provide in writing a target completion date for recommendation 2. We appreciate
MARAD's courtesies and cooperation during this audit. If you have any questions
concerning this report, please contact me at (202) 366-9970 or Christopher
Brothers at (202) 366-8811.


cc: Audit Liaison, OST, M-1
    Audit Liaison, MARAD, MAR-392


                                      #
                                                                                   9



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted a follow-up audit, as requested in Senate Report 110-131, to
determine whether MARAD had addressed the eight recommendations in our
2003 and 2004 audit reports on the Title XI Loan Guarantee program. Through
meetings with MARAD Headquarters officials, we obtained and evaluated
documentation to determine whether MARAD had taken actions to fully address
each OIG recommendation. We also reviewed a sample of loan guarantee files that
were statistically selected by the OIG statistician and assessed the actions taken by
MARAD from September 28, 2004 through December 31, 2009—after our 2004
report.

We interviewed officials from MARAD's Office of Marine Financing and the
DOT Credit Council to obtain information about the management of the Title XI
program. We received a demonstration of CPPMS; however, we did not audit the
system or its procurement. We also conducted interviews with MARAD officials
from the Office of the Maritime Administrator, Office of Shipyards and Marine
Engineering, and Division of Marine Insurance.

We selected a statistical sample of 60 of 114 approved Title XI loan guarantees
with probability proportional to the dollar amount of the loan guarantee. Upon
receipt, we conducted an in-depth review of the files of 20 loan guarantees that
had activity during the scope of our review. Our in-depth review of files for 20
loan guarantees covered 14 companies or borrowers. We also reviewed additional
documentation that MARAD provided in May 2010.

We also reviewed relevant laws and regulations, and policies and procedures, such
as DOT orders, Title XI program guidance, the February 2004 memoranda,
MARAD's Maritime Administrative Orders, and related criteria.

We conducted this performance audit from November 2009 through
February 2010 in accordance with generally accepted government auditing
standards as prescribed by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




Exhibit A. Scope and Methodology
                                                                                 10



EXHIBIT B. OIG'S 2003 AND 2004 RECOMMENDATIONS

                  2003 OIG Audit Report (CR-2003-031)
1. Require a rigorous analysis of the risks from modifying any loan approval
   criteria and impose compensating provisions on the loan guarantee to mitigate
   those risks.
2. Formally establish an external review process as a check on MARAD’s
   internal loan application review and as assistance in crafting loan conditions
   and covenants.
3. Establish a formal process for continuously monitoring the financial condition
   of borrowers, including requirements for financial reporting over the term of
   the guarantee as a condition of loan approval.
4. Establish a formal process for continuously monitoring the physical condition
   of guaranteed assets over the term of the loan guarantee.

5. Develop an improved process for monitoring the physical condition of
   foreclosed assets and for recovering the maximum amount of funds from their
   disposal.
                  2004 OIG Audit Report (CR-2004-095)
1. Perform a full accounting of each borrower’s Reserve Fund, and require all
   borrowers to cure any defaults under the requirements of their Reserve Fund
   and Financial Agreements, including full funding of Reserve Funds.
2. In coordination with the Department of Transportation Credit Council, secure
   access to advisors outside MARAD with the requisite capacity and technical
   sophistication to negotiate solutions to distressed loans, including appropriate
   compensating provisions to mitigate risk.
3. With the concurrence of the Department of Transportation Credit Council,
   seek appropriations language allowing the use of as much of the $25 million
   wartime supplemental appropriation as necessary to develop a comprehensive
   computer-based financial monitoring system.




Exhibit B. OIG's 2003 and 2004 Recommendations
                                                              11




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                  Title

  Brenda R. James                       Program Director

  Christopher Brothers                  Project Manager

  Regan Maund                           Senior Analyst

  Marvin Tuxhorn                        Senior Auditor

  Michael English                       Analyst

  Doris Kwong                           Analyst

  Petra Swartzlander                    Senior Statistician

  Harriet Lambert                       Writer-Editor

  Susan Neill                           Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                                     12




           APPENDIX. AGENCY COMMENTS



           U.S. Department
                                                      Memorandum
           of Transportation
           Maritime
           Administration



Subject:   Draft Report on Title XI Loan Guarantee Program:                 Date:    November 10, 2010
           Actions Needed To Fully Address OIG's
           Recommendations
           Project No. 09M3004M000

  From:    David T. Matsuda                                              Reply to
                                                                         Attn. of:
           Maritime Administrator

    To:    Mitchell Behm
           Assistant Inspector General for Rail, Maritime
            and Economic Analysis


           The Maritime Administration (MARAD) recognizes the importance of effective business
           processes and careful oversight to ensure that investments in American shipyards and
           merchant fleets through the Title XI program offer the maximum achievable benefit.
           While the majority of the risk of guaranteeing a loan that later results in default occurs in
           the initial analysis period and loan guarantee approval process - not the loan repayment
           period -MARAD takes very seriously its record-keeping and post-approval monitoring
           duties in order to ensure transparency of the program and rapid action when necessary to
           protect the federal government’s financial interests. We believe that none of the Title XI
           defaults over the past decade could have been avoided by any action taken post-approval
           of the loan guarantee.

           While staffing of the Title XI program reached an all-time low during the IG
           investigation period primarily due to regular attrition, MARAD recently named a new
           Associate Administrator for Business and Finance Development. This senior official has
           been charged with conducting a comprehensive business process review of the Title XI
           Program, with the intention of ensuring that processes are effective, efficient, sufficiently
           documented, and complied with. This effort will be assisted by issuance of a recent
           contract for an outside consultant to study the existing processes and recommend new
           ones. Further, MARAD has obtained additional staff resources for the Title XI program
           that will be trained according to MARAD’s updated, standardized processes. MARAD is
           also working toward participation in an upgrade to Credit Program Performance


           Appendix. Agency Comments
                                                                                         13


Monitoring System (CPPMS) functionality that will enable it to better serve MARAD’s
multifunctional mission requirements. Finally, MARAD is implementing an updated
centralized electronic filing system that will enable the organization to store images of
standardized information requirements in a single place, accessible to all program
officials.

Recommendations and Response

Recommendation 1: Reconcile formal Title XI policy with the February 2004 guidance
memoranda and practices used to manage the program.

Response: Concur. MARAD has recently taken several actions that will ensure better
alignment of procedures with the February 2004 guidance memorandum. First, MARAD
has commissioned a business process review of the Title XI program. This review,
expected to be completed by May 31, 2011, will document in detail the current policies
and procedures in place, identify any gaps such as those identified in the draft report, and
recommend measures to reconcile gaps or inconsistencies and, further, to improve the
management of the existing Title XI portfolio and provide better processing of Title XI
applications. MARAD intends to complete actions necessary to ensure that all policy,
guidance and procedures for the Title XI program are consistent by July 15, 2011.

In addition, the Office of Marine Financing has hired three Financial Analysts since the
beginning of June 2010. As part of the training and orientation process for these
employees, the senior staff of the Office of Marine Financing will ensure that the new
Financial Analysts are trained in a manner consistent with the February 2004 guidance.

Finally, MARAD will conduct a Title XI policy review to ensure that support offices are
adhering to the 2004 guidance. This review will include a study by the Office of Chief
Counsel about the legal authority and potential to make changes to existing contracts with
Title XI borrowers in order to harmonize financial reporting requirements among all
borrowers.

Recommendation 2: Require the Office of Marine Financing and MARAD's CIO to
work together to identify capabilities needed to complete the development of the
comprehensive computer-based financial monitoring system. At a minimum, they should
ensure that the system allows for efficient monitoring of portfolio performance and
information sharing with DOT stakeholders.

Response: Concur. MARAD has obligated its portion of the resources necessary to
implement changes to CPPMS to make it more useful to Title XI program staff and DOT
stakeholders. MARAD will also seek to work with the DOT Office of the Chief
Information Officer to identify resources to train DOT stakeholders on the use of CPPMS
for use in sharing information and monitoring program performance. MARAD looks
forward to a partnership with the DOT Chief Information Officer and the DOT Office of
Budget and Program Performance to complete the development of this department-wide
computer-based financial monitoring system.



Appendix. Agency Comments
                                                                                      14


Recommendation 3: Ensure that the information needed to oversee borrower compliance
with program requirements is readily accessible, that the location and components of
each administrative file are easily identifiable, and that each file contains all
documentation needed for evaluating borrower compliance with Title XI requirements by
inclusion or reference.

Response: Concur. Since the OIG concluded its performance audit in May 2010,
MARAD’s Office of Marine Financing has taken several steps to increase the usability of
its administrative files. First, the files have been placed in a centralized location and
organized in a more logical fashion. Second, MARAD has executed a contract for
scanning services, with the objective of scanning all required documents for each
transaction and organizing them on MARAD’s internal network, accessible both through
CPPMS and the network. This will allow ready identification of files, easing monitoring
of borrower compliance. In addition, as part of the training and orientation process for
the new Financial Analysts, the new analysts will be trained on the required contents of
each administrative file. As the scanning contract is concluded, the documents will be
placed on the network in a consistent manner and in a format that favors easy
identification. We anticipate having the scanned files available by August 31, 2011.




Appendix. Agency Comments
